                     United States Attorney Richard S. Hartunian
                            Northern District of New York

FOR IMMEDIATE RELEASE                                 CONTACT:        Richard S. Hartunian or
DECEMBER 15, 2011                                                     Robert P. Storch
http://www.usdoj.gov/usao/nyn                                         (518) 431-0247

                   DEFENDANTS ADMITS SOCIAL SECURITY SCAM

         Failed to Report Assets that would have Affected Continued Right to Benefits

       ALBANY, NEW YORK —United States Attorney Richard S. Hartunian announced that

Robert M. Vivas pled guilty today before Senior United States District Judge Lawrence E. Kahn to

one felony count of failing to disclose information affecting the right to continued receipt of Social

Security Supplemental Security Income (SSI) benefits that he received on behalf of his minor son.

       Vivas, age 44, of Hudson, admitted in Court today that he repeatedly failed to disclose assets,

including certificate of deposit accounts, a joint bank account, and stocks, that would have affected

his right to continued receipt of SSI benefits on behalf of his minor son, resulting in an overpayment

from May 2006 through October 2009 totaling approximately $27,650.00.               He now faces a

maximum sentence of up to five years imprisonment, a $250,000 fine, or both, plus mandatory

restitution to the Social Security Administration. Sentencing in the case was set for Thursday,

March 29, 2012, at 10:30 am, before Senior Judge Kahn in Albany.

       The investigation in this matter was conducted by the local office of the SSA Office of

Inspector General, and the case is being prosecuted by the United States Attorney’s Office for the

Northern District of New York.



       CONTACT: Assistant U.S. Attorney Robert P. Storch
                518-431-0247


                                               ###
